Case l:19-cv-00483-REB Document 15 Filed 10/21/20 Page 1 of 2

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO

JIMMIE O’NEAL,
Case No. l:19-cv-00483-REB
Petitioner,
ORDER OF DISMISSAL
v.
JAY CHRISTENSEN,
Respondent.

Currently before the Court in this matter is Petitioner Jimmie O’Neal’s Petition for
Writ of Habeas Corpus. Dkt. 3. Respondent has filed a Motion for Summary Dismissal.
Dkt. 12. Petitioner did not file a timely response.
Because of the pandemic, on July 24, 2020, the Court, on its own motion, granted
Petitioner an extension of time to file his response. The Court also notified Petitioner that
this case would be dismissed with prejudice, for failure to prosecute or failure to comply
with a court order, if Petitioner did not respond to Respondent’s Motion within 60 days.
Dkt. 14. Petitioner still has not responded to the Motion.
All parties have consented to the jurisdiction of a United States Magistrate Judge
to conduct all proceedings in this case in accordance with 28 U.S.C. § 636(c) and Federal
Rule of Civil Procedure 73. Dkt. 7.
ACCORDINGLY, IT IS ORDERED:
1.

The Petition for Writ of Habeas Corpus (Dkt. 3) is DISMISSED with

ORDER OF DISMISSAL - 1

Case l:19-cv-00483-REB Document 15 Filed 10/21/20 Page 2 of 2

prejudice for failure to prosecute and for failure to comply with a Court
order. See Fed. R. Civ. P. 41(b); Rule 12 of the Rules Governing Section
2254 Cases (“The Federal Rules of Civil Procedure, to the extent that they
are not inconsistent with any statutory provisions or these rules, may be
applied to a proceeding under these rules.”).
2.

Respondent’s Motion for Summary Dismissal (Dkt. 12) is MOOT.

3.

The Court does not find its resolution of this habeas matter to be reasonably
debatable, and a certificate of appealability will not issue. See 28 U.S.C.
§ 2253(c); Rule 11 of the Rules Governing Section 2254 Cases. If
Petitioner wishes to appeal, he must file a timely notice of appeal in this
Court. Petitioner may seek a certificate of appealability from the Ninth
Circuit by filing a request in that court.

DATED: October 21, 2020

Ronald E. Bush
Chief U.S. Magistrate Judge

ORDER OF DISMISSAL - 2

